No.20-1737
IN THE SUPREME COURT OF THE UNITED STATES

LUKE NOEL WILSON,
Petitioner,
V.

STATE OF CALIFORNIA
Respondent.

PROOF OF SERVICE

I, Devin J. Burstein, hereby certify that all pa11iesrequired to be served with the motion to
proceed in forma pauperis filed herewith have been served as follows:
On September 30, 2021, I caused the original and ten copies to be delivered to Clerk,
Supreme Com1 of the United States, Washington, D.C., 20543; and on the same date I caused one
copy to be delivered to counsel of record for the Attorney General of California, 600 West
Broadway, Ste. 1800, San Diego Ca., 92101.

-~VIN

J. ~RSTEIN

